                        DEPARTMENT OF HEALTH AND HUMAN SERVICES


                   OFFICE OF INSPECTOR GENERAL
                                        WASHINGTON, DC 20201




                                        APR 232012
TO: 	          Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services

                              /S/
FROM:         Stuart Wright
              Deputy Inspector General
                for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Status of244 Provider Audit Targets Identified Using
           Review Medicaid Integrity Contractor Analysis, OEI-05-10-00201


This memorandum report is intended as an addendum to our February 2012 report, Early
Assessment ofReview Medicaid Integrity Contractors (OEI-05-1 0-00200), in which we
identified concerns with the quality of Review Medicaid Integrity Contractor (MIC) analysis.
The effect those quality concerns could have on audit outcomes served as the impetus for issuing
this memorandum report. That report and this memorandum report are an early assessment of
Review MICs' program integrity activity results.

SUMMARY

To identify overpayments to Medicaid providers, the Centers for Medicare & Medicaid Services
(CMS) contracts with two types of MICs: Review MICs and Audit MICs. Review MICs
analyze Medicaid claims data to identify providers with potential overpayments. From the
resulting lists of providers, CMS selects audit targets to assign to Audit MICs.

In the report Early Assessment ofReview Medicaid Integrity Contractors (OEI-05-10-00200), the
Office ofInspector General (OIG) identified concerns with the quality of Review MIC analysis
that resulted in CMS's selection of 244 providers as audit targets. This memorandum report
follows those 244 audit targets and reports on the status and outcomes of audits conducted by
Audit MICs. The results provide insights into whether the quality of Review MIC analysis
affected findings of actual Medicaid overpayments.

Between June 2010 and January 2011, CMS assigned to Audit MICs 161 ofthe 244 audit targets.
As of February 1,2012, Audit MICs had completed 127 of the 161 assigned audits. Only 25 of
these 127 completed audits found actual overpayments, totaling $285,629.
Page 2 – Marilyn Tavenner


BACKGROUND

The Deficit Reduction Act (DRA) of 2005 established the Medicaid Integrity Program to fight
fraud, waste, and abuse. The DRA requires CMS to contract with entities to identify
overpayments to Medicaid providers. CMS contracted with two types of MICs—Review MICs
and Audit MICs—to identify such overpayments.

Identification of Overpayments From Review MIC Analysis
CMS contracted with Review MICs to identify providers who potentially received Medicaid
overpayments and with Audit MICs to audit these providers.

CMS makes data analysis assignments to Review MICs. Using nationally available Medicaid
claims data, Review MICs identify providers who potentially received overpayments. After
reviewing the analysis provided by Review MICs, CMS selects certain providers as audit targets
and assigns them to Audit MICs. Audit MICs then audit these targets to determine whether the
potential overpayments associated with them were overpayments. Chart 1 shows this process for
identifying Medicaid overpayments.

Chart 1: Process for Audit Targets Originating From Review MIC Analysis
                                    CMS makes data analysis assignments to Review MICs



                                           Review MICs identify potential overpayments


                                        States review samples of potential overpayments


                             Review MICs make changes to analysis based on State comments


                                    Review MICs send CMS lists of providers with potential
                                                      overpayments


                                    CMS completes quality assurance on lists of providers


                                                       CMS selects audit targets

                                              CMS screens audit targets with States or
                                                         Federal entities

                                                     CMS assigns audit targets to
                                                            Audit MICs


                                                       Audit MICs conduct audits


                                                       Audit MICs identify actual
                                                             overpayments
Source: OIG analysis of interviews with CMS, March 2012.

OEI-05-10-00201 Status of 244 Provider Audit Targets Identified Using Review Medicaid Integrity Contractor
Analysis
Page 3 – Marilyn Tavenner


In addition to this traditional process, CMS may assign collaborative audits, which involve Audit
and Review MICs, States, and CMS in identifying audit targets. MICs, CMS, and the States
work together to identify providers with potential overpayments using each State’s own
Medicaid claims data. CMS then assigns these targets to Audit MICs.

Related OIG Work
OIG has issued two reports on the use of MICs to identify Medicaid overpayments for recovery
by States:

    •   Early Assessment of Review Medicaid Integrity Contractors (OEI-05-10-00200). As
        described earlier, this February 2012 report found that CMS selected 244 providers as
        audit targets from 113,378 providers that Review MICs identified (from assignments
        made between January and June 2010) as having potential overpayments. In addition, we
        found that the Medicaid claims database used by Review MICs often had missing or
        inaccurate data, hindering Review MICs’ ability to accurately complete their data
        analysis assignments.
    •   Early Assessment of Audit Medicaid Integrity Contractors (OEI-05-10-00210). This
        March 2012 report focused on 370 different audit targets assigned to Audit MICs
        between January and June 2010. We found that 81 percent of reviewed audits either did
        not find overpayments or were unlikely to find overpayments. Most of the actual
        overpayments identified by Audit MICs were found through seven collaborative audits.
        Further, we found that Audit MICs’ ability to identify overpayments was hindered
        because audit targets were inappropriately identified by Review MICs.

METHODOLOGY

Using CMS’s tracking database, we determined whether each audit target was assigned to an
Audit MIC and whether each assigned audit was completed or ongoing as of February 1, 2012.
For the purposes of this review, we considered audits to be complete if they resulted in a report
or were discontinued by CMS. For completed audits, we used the most recently reported
estimate of actual overpayments to calculate the monetary results.

As of February 1, 2012, CMS assigned 161 of the 244 audit targets for audit. Therefore, our
analysis is based on those 161 assigned audit targets. We do not have any information as to why
the remaining 83 audit targets were not assigned.

Data Limitations
This memorandum report only provides information and insights on audit targets originating
from Review MIC analysis. The 244 audit targets reviewed in this memorandum report were
identified through the traditional process in which providers are identified by Review MICs,
reviewed and selected for audit by CMS, and audited by Audit MICs. We did not review
collaborative audits assigned by CMS during this period. As a result, this memorandum report
does not capture the entirety of CMS’s efforts to identify Medicaid overpayments. This
memorandum report also does not examine the roles that CMS or Audit MICs play in the
identification, assignment, or audit of providers that potentially received Medicaid
overpayments.


OEI-05-10-00201 Status of 244 Provider Audit Targets Identified Using Review Medicaid Integrity Contractor
Analysis
Page 4 – Marilyn Tavenner


Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Audits of Providers Identified by Review MICs Found Few Overpayments
Ultimately, Review MIC analysis from assignments made between January and June 2010 led to
25 completed audits with actual overpayments, totaling $285,629. Review MICs had initially
identified 113,378 providers with potential overpayments, and CMS had reviewed these 113,378
providers and selected 244 as audit targets. CMS assigned 161 of these 244 audit targets, with
$33.5 million in potential overpayments, to Audit MICs.

As of February 1, 2012, Audit MICs had completed 127 of the 161 assigned audits of providers.
An average of 10 months elapsed between the date CMS assigned these audits to Audit MICs
and the date the Audit MIC reported its findings to CMS. Twenty-five of these completed audits
found overpayments, totaling $285,629. The remaining 102 completed audits found no
overpayments. Thirty-four of the assigned audits had not been completed and were ongoing as
of February 1, 2012. Chart 2 shows the process that resulted in the identification of $285,629 in
actual overpayments.
Chart 2: Identification of Actual Overpayments From Review MIC analysis



            Review MICs identify 113,378 providers                                     $282 million in potential overpayments




                     CMS selects 244 providers as                                        $39.8 million in potential
                            audit targets                                                    overpayments




                          CMS assigns 161 providers                                    $33.5 million in potential
                              as audit targets                                             overpayments




                                  25 provider audits                                   $285,629 in actual
                                      completed                                          overpayments




Source: OIG analysis of Review MIC assignments and 244 audit targets, February 2012.




OEI-05-10-00201 Status of 244 Provider Audit Targets Identified Using Review Medicaid Integrity Contractor
Analysis
Page 5 – Marilyn Tavenner


CONCLUSION

The results in this memorandum report are consistent with results of previous OIG reports on
Review MICs and Audit MICs. As mentioned earlier, we issued reports on Review MICs and
Audit MICs in February and March 2012, respectively. 1 In the Review MIC report, we noted
that missing and inaccurate data in the Medicaid claims database used by Review MICs hindered
their ability to correctly identify potential overpayments, and that some assignments may not
lead to recoveries. In the Audit MIC report, we documented that most audits completed prior to
those identified in this memorandum report also did not identify actual overpayments, primarily
due to problems with the data and with analyses conducted by Review MICs and CMS that led to
poorly identified audit targets.

In each of these reports, we made a recommendation directed at improving the effectiveness of
MICs and the process for identifying providers who received Medicaid overpayments. In
response, CMS stated that it has several initiatives underway to improve audit target selection,
including improving the quality of data that MICs can access for conducting data analysis.
Additionally, CMS stated that it has redesigned its approach to audit assignments, instructing
Audit MICs to focus on collaborative projects. In fact, CMS stated that it assigned more audits
through the collaborative process than through the traditional process in 2011.

This memorandum report is being issued directly in final form because it contains no
recommendations. Please refer to report number OEI-05-10-00201 in all correspondence.




1
 OIG, Early Assessment of Review Medicaid Integrity Contractors (OEI-05-10-00200), February 2012, and Early
Assessment of Audit Medicaid Integrity Contractors (OEI-05-10-00210), March 2012.
OEI-05-10-00201 Status of 244 Provider Audit Targets Identified Using Review Medicaid Integrity Contractor
Analysis
